CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on 20th day of September, 2019, hard copies of
the Supplemental Brief and related appendix, and Certificate of Compliance are
mailed via first- class mail, postage pre-paid, to
Mr. James N. Lewis
Assistant Attorney General
Maryland Department of Health
300 W. Preston Street, Suite 302
Baltimore, MD 21201
Mr. Nicholas E. Johansson
Assistant Attorney General, Principle Counsel,
Maryland Department of Health
300 W. Preston Street, Suite 302
Baltimore, MD 21201
Mr. Clifton R. Gray
Federal Trial Bar No. 27895
Assistant Attorney General
Maryland Department of Budget and Management
300 W. Preston Street, Suite 407
Baltimore, MD 21201

Mr. Brian E. Frosh
State Attorney General of Maryland
200 ST. Paul Place,
Baltimore, MD 21202

R specVly,
iao- irigYu

